                                                     SENSITIVE BUT UNCLASSIFIED



    A
                                               United States Department of State
                                            and the Broadcasting Board of Governors
                                                   Office of Inspector General
Office of Inspector General


                                                 Office of Inspections

                                                Inspection of
                              the Bureau of Information Resource Management,
                                       Systems and Integration Office

                                              Report Number ISP-I-12-30, June 2012




                                                                 Important Notice

                               This report is intended solely for the official use of the Department of State or the
                               Broadcasting Board of Governors, or any agency or organization receiving a copy
                               directly from the Office of Inspector General. No secondary distribution may be made,
                               in whole or in part, outside the Department of State or the Broadcasting Board of
                               Governors, by them or by other agencies of organizations, without prior authorization
                               by the Inspector General. Public availability of the document will be determined by the
                               Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                               may result in criminal, civil, or administrative penalties.




                                                     SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                               Table of Contents

Key Judgments                                                       1
Context                                                             2
Executive Direction                                                 4
  Mission and Goals                                                 4
  Leadership                                                        4
  Communication                                                     5
Program Implementation                                              7
  Contract Management                                               7
  Systems Development Life Cycle                                    9
  Program Management Functions                                     10
  Development Network                                              11
Business Engagement Center Division                                13
  Planning, Acquisition, and Budget Branch                         13
  Information Management Support Branch                            15
  Enterprise Server Operations Center Customer Management Branch   16
Enterprise Server Operations Center Divisions                      18
  Operations and Maintenance Division                              18
  Design and Build Division                                        20
  Customer and Executive Information System                        21
  Cloud Computing                                                  21
Collaboration and Compensation Services Division                   24
  Enterprise Collaboration Services Branch                         24
  Compensation Applications Branch                                 28
Enterprise Programming and Integration Division                    30
  Data Management Branch                                           30
  Integrated Projects Branch                                       30
  Application Development Branch                                   31
  Program Management Office                                        31
List of Recommendations                                            33
List of Informal Recommendations                                   36
Principal Officials                                                37
Abbreviations                                                      38




                                      iii
                          SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Key Judgments
•         The Systems and Integration Office (SIO) has a knowledgeable, hardworking, and
          engaged management team that, for the most part, effectively dispatches its duties, which
          involve a wide range of new and old technologies, centralized and decentralized models
          of network management, budgetary items it can and cannot control, as well as colocated
          and dispersed physical locations.

•         SIO senior leadership has made a concerted effort to promulgate a cohesive mission
          statement and goals to direct the activities of the office.

•         SIO’s implementation of cloud computing does not fulfill the essential characteristics of
          cloud computing as defined by the National Institute of Standards and Technology
          (NIST).

•         SIO lacks adequate controls and procedures to monitor its multiyear contracts totaling
          more than $182 million.

•         The use of SharePoint sites has grown significantly beyond the intended scope of this
          application, with many employing SharePoint to conduct daily business as well as
          support key political and military events.

•         SIO management has not enforced use of the systems development lifecycle (SDLC)
          process and methodology in all its relevant divisions and branches.

•         Management needs to define clearly the role and organizational placement of the
          Program Management office and function and to standardize the use of terminology
          referring to office activities.

•         Communication in all areas of SIO’s business needs improvement.

•         SIO’s internal inventory process for managing and tracking is poorly defined and
          documented.

•         SIO management has not begun working on a formal plan for the Compensation
          Application branch regarding the transition of the payroll support function to the Bureau
          of Resource Management.



The inspection took place in Washington, DC, between February 6 and March 16, 2012.
(b) (6)




                                             1
                                SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Context
        SIO is one of six functional areas of the Operations directorate in the Bureau of
Information Resource Management (IRM). SIO traces its origins back to the Department of
State’s (Department) establishment of the Automated Data Processing Office in 1959. After
several reorganizations, that office evolved into SIO, which today provides application
development, software integration, and enterprise server management services. The full scope of
SIO’s functions often overlaps with other areas of IRM and the Department, but it formally
defines its mission as to “empower diplomacy with robust cloud computing, collaborative
services, and integrated software solutions.”

       SIO develops, deploys, and supports numerous applications at more than 200 posts and
28 bureaus. It has three data centers that provide enterprise server management for domestic
bureaus, including support of the mainframe system that controls the Department’s payroll. SIO
is known in the Department for some of its more widely used products and services such as Post
Administrative Software Suite, eCountry Clearance, Enterprise Server Operations Center, and
Microsoft Office SharePoint Server 2007.

        SIO has five divisions supporting its mission. The Enterprise Server Operations Center
(ESOC) Design and Build (D&B) division supports the standup of the enterprise-wide data
centers and the Federal Data Center Consolidation Initiative. The ESOC Operations and
Maintenance (O&M) division supports the operation of the data centers. The Collaboration and
Compensation Services (CCS) division maintains the Department’s legacy payroll systems and
provides enterprise-wide SharePoint technical support. The Enterprise Programming and
Integration (EPI) division is responsible for several enterprise-wide software solutions, the
enterprise service bus, and data management initiatives. The Business Engagement Center (BEC)
division provides contract, budget, and administrative support to SIO.

        SIO has developed five strategic goals for FYs 2012 and 2013 to link to the Department’s
Information Technology (IT) Strategic Plan. The first goal is the design and build of the ESOC
West data center, including activities to automate and modernize backups and to support cloud
computing, virtualization, and the Federal Data Center Consolidation Initiative. The second
includes planning for upgrades and capacity growth, as well as customer service and
performance measurement support. The third focuses on further development of collaboration
services such as SharePoint, as well as sunsetting legacy mainframe applications. The fourth
includes ambitious plans to implement Web services hosted on a centralized enterprise service
bus, standardize metadata, and enhance enterprise applications. The fifth goal includes
implementing financial management and inventory control, as well as monitoring service level
agreements (SLA) with bureaus that have moved forward with data center consolidation with
SIO.

        The last goal will prove increasingly important as Department implementation of its
recently entered Vanguard contract looms over SIO and IRM. The Vanguard effort is a
Department initiative to consolidate all IRM contract activities under one performance-based
contract. As such, it should compel a paradigm shift in the way IRM does business, as
Department IT managers will have to adapt to a model of managing user expectations and

                                          2
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

evaluating contractor performance against the contract terms versus managing resources and
affecting outcomes directly. There will be attendant consequences on most aspects of SIO
operations and organizational structure as SLAs are crafted to mold operations to the lines of
business outlined in the contract.

        According to IRM, SIO has 77 full-time employees with 14 vacant positions. There are
also 205 contractors from 14 different contract companies supporting SIO operations. The total
value for the life of these contracts, which are paid under the umbrella of the HITTS contract, is
approximately $182 million. In FY 2011, SIO’s annual operating budget was approximately
$72.2 million. SIO’s FY 2013 budget request was for more than $82 million.




                                           3
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Direction
Mission and Goals

         SIO senior leadership has made a concerted effort to develop and promulgate a cohesive
mission statement to direct the activities of the office. Motivated by recent Office of Inspector
General (OIG) reports highlighting the lack of such mission statements in other offices, SIO
created a new mission statement that focuses on cloud computing, collaborative services, and
integrated software solutions and posted it prominently around the office just prior to the OIG
inspection. The statement is broad, technology neutral, and links SIO’s work to the Department’s
business of diplomacy. However, the OIG team questions whether the statement is so broad that
many employees may not understand how to contribute toward achieving it; for example, do
system administrators or software developers working on SharePoint understand they are
supporting the “platform as a service” portion of NIST’s cloud computing model? Interestingly,
the first line on the “About Us” page of SIO’s intranet site describes the office as “the
Department’s primary source for application development, software integration, and enterprise
server management.” The OIG team found that language to be more succinct in describing the
office’s role in the Department. Nevertheless, time will tell whether the new mission statement
will prove meaningful to SIO employees and help guide their efforts.

        SIO also developed a document detailing its strategic goals and objectives; however, this
information appears to bypass the SIO mission statement and be more aligned with the
Department’s IT Strategic Plan. The document does have significant detail and demonstrates a
commitment to larger Department goals. This commitment will be tested soon and for the
coming years as IRM proceeds with the consolidation of all its contract activities under the
performance-based Vanguard contract. Additionally, the Department’s retooling of the strategic
planning and resource management process, along with an expected update of IRM’s IT
Strategic Plan, provides an opportunity to revise SIO’s new mission statement to better reflect
the office’s role. It will be important for SIO management to keep its focus on a potentially
moving target and to treat its mission statement as part of a planning and implementing process
requiring regular reviews, rather than as a completed checkmark.

       Informal Recommendation 1: The Bureau of Information Resource Management should
       conduct periodic reviews of the Systems and Integration Office’s mission and goals to
       measure its progress in meeting the Department of State’s information technology
       strategic goals and make revisions as needed.

Leadership

         The OIG team observed a knowledgeable, hardworking, and engaged management team
that, for the most part, effectively dispatches its duties, which involve a wide range of disparate
responsibilities that require working with both new and old technologies, centralized and
decentralized models of network management, budgetary items it can and cannot control, as well
as colocated and dispersed physical locations. The SIO director joined the office in January
2007. IRM senior leadership universally lauds her abilities and achievements, and division and
branch chiefs within SIO had positive comments about her leadership qualities. Other feedback

                                           4
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

included generally favorable scores on OIG’s inspection survey, with the interesting anomaly
that full-time employee survey scores were slightly lower than contractor scores across the
board. Those that reported having the most regular contact with the Director provided high
praise, while those at lower levels with less frequent or no interaction with her had some
complaints related to office communication and dissemination of management priorities. There
were similar comments regarding the leadership qualities of division and branch chiefs, with
some frustration about inconsistent organizational communication.

        Within SIO, the OIG team encountered various accounts of leadership at the division and
branch levels. Some are satisfied with how their group conducts its business; however, others
complain about how the entity translates broader office goals into prioritized tasks. Some groups
have been setting the scope of their work too broad, causing them to lose focus. Some complain
that priorities change daily based on who is complaining the loudest. Priorities tend to be fluid,
with constantly changing deliverable dates. Others note a lack of risk planning when translating
goals into tasks. Additionally, the common use of matrix resources appears to have led to
conflicting priorities and timelines for project deliverables. These issues generally relate to
communication of management priorities and implementation of organizational processes to
achieve them.

        A fairly common complaint among survey respondents and those interviewed during the
inspection was that SIO does not have sufficient representation with senior IRM leadership.
Some thought that key SIO products are often ignored or not funded, despite holding high
significance with respect to the Department’s IT Strategic Plan. Some criticized the director for
not sufficiently promoting SIO’s products with IRM senior management. Likewise, integration
within and across IRM has been spotty and problematic, occasionally hampering SIO’s
productivity when it must rely on other IRM organizational elements. Continued management
engagement with other IRM directorates and offices will be necessary to achieve effective
collaboration on projects.

Communication

         Communication in all areas of SIO’s business needs improvement, with the possible
exception of that with other agencies. The OIG team encountered myriad complaints of
ineffective communication within SIO, within IRM as a whole, and with other bureaus in the
Department. (b) (5)                                                  SIO management has made
earnest efforts to improve communication, including various types of all-hands meetings,
SharePoint sites, team-building exercises, and newsletters, but has yet to find the right balance.
The challenges are numerous, including highly disparate employee functions and backgrounds,
significant turnover in contract employees, and dispersed work locations. The move of some
staff to State Annex 9 has helped in some respects but has also led to complaints of too much
communication, with offices having to sift through duplicate copies of the same information.
Poor cross-team and interbureau communication is also a problem, with managers in other
bureaus eschewing the proper channels and escalation procedures and instead communicating
directly with a manager in SIO. Although this strategy works well for the individual, it
circumvents the processes in place and impedes communication as a whole. The technology
meant to enhance communication has also sometimes been the source of frustration, with
messages being sent out in a scattershot manner and involving too many recipients to be
                                           5
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

productive. Meanwhile, many complained that most of the larger staff, all-hands, and other
meetings on the already busy SIO schedule seem to rehash old information and thus are a waste
of time. Others are weary of the leadership’s attempts at team-building exercises. The SIO
director has planned to resume periodic newsletters as a means of communicating better with her
staff.




                                         6
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Program Implementation
Contract Management

        SIO currently has nine separate task orders under six contracts, with a total value of more
than $182 million. Each contract is for a performance period ranging from 3 to 5 years. SIO
functions will be consolidated as part of the 2.3.x series under the Vanguard effort, which is a
Department initiative to consolidate all IRM contract activities under the umbrella of one
performance-based contract with multiple task orders. SIO’s existing task orders—SharePoint
Operations and Maintenance, ESOC Operations, IRM Applications Operations and Maintenance,
Data Management, and Integrated Project—will be part of the 2.3.x series. The compensation
task order, which supports the responsibilities for the legacy payroll function that will be
transferred to the Bureau of Resource Management, is not part of this effort.

        SIO management has spent considerable time planning for the transition to the Vanguard
contract and has established a Vanguard Project Team to assist with this effort. The Vanguard
Project Team is led by the EPI division chief, with management representation from the other
SIO divisions, the other IRM elements, and the executive office of the Bureau of Administration.
The project team meets weekly and discusses progress made to date. Assigned individuals are
reviewing the scope of services of existing contracts and developing performance metrics for
evaluating the work performed. SIO is benefitting from lessons learned from the Vanguard 2.2.1
implementation and seems to be taking the needed time to plan. The OIG team encourages SIO
to continue with its planning efforts for the Vanguard 2.3.x series and to be mindful of the
importance of continuous communication with affected parties to ensure a smooth transition.

Central Repository

        SIO lacks adequate procedures and controls to monitor contracts and the work performed
by contractors. Contract documentation is located in multiple places, including personal emails,
several electronic library sites, and in hard copy. SIO maintains at least three electronic library
sites but does not have a mechanism for grouping the documentation together in a logical,
systematic way or for linking documents to the other library sites. Upon review of library files,
the OIG team found duplicate and incomplete documentation, inconsistent naming conventions,
and no verification that the contracting officer’s representatives (COR) and government technical
monitors (GTM) have accessed and reviewed the files.

        The recently created SIO Financial Private Library, which is the repository of contracts,
agreements, training certifications, and delegations of authority for the CORs and GTMs, is also
not organized so that the user can easily locate and/or review documents. The OIG team found
no complete contract files containing contract deliverables such as monthly reports, meeting
minutes, or correspondence between the COR/GTM and contractor in an accessible location.
Further, although the financial library used internally by BEC management contains contractor
invoice files, it does not show evidence of payment approvals. Based on the OIG team’s
suggestion, BEC staff recently started uploading files such as invoices and emails to the financial
library. However, these invoices are still being filed in the same manner as the earlier invoices,
making it difficult to identify the invoice dates without opening each document.

                                           7
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 1: The Bureau of Information Resource Management should establish a
central repository for the management of Systems and Integration Office contracts so that all
relevant documentation for each contract, such as statements of work, amendments, and invoices,
are in one central location. (Action: IRM)

        SIO management also does not have a centralized process for determining the status of
obligations or funds for each contract. SIO provided the OIG team with a spreadsheet, dated
January 27, 2012, listing the contract ceiling limits and total amount spent for each contract. The
OIG team found several factual errors, including incorrectly identified contract option years and
expiration dates. The team also found that the total amount spent on the contracts had not been
updated on the spreadsheets from January 13 to March 14. The process for invoicing involves
multiple parties and steps, making the need for better management of contract funding and
obligations even more pressing. Currently, division chiefs or GTMs verify contractor labor hours
against the time and attendance information entered in either the Project Tracking System or
Customer and Executive Information System (CEIS). Then the information is sent via email to
BEC division staff members who compare the contractor invoices against the contract, verify
fund availability, and complete the invoice approval form sent to Global Financial Services
Charleston for payment. SIO estimates that it pays approximately 400 invoices per year. It is in
SIO’s interest to continually track funds to help ensure accountability and meet priorities and
goals.

Recommendation 2: The Bureau of Information Resource Management should prepare a
funding document that details the authorized, spent, and remaining funds for each Systems and
Integration Office contract and implement procedures to verify and update this information
regularly. (Action: IRM)

Contracting Officer’s Representative and Government Technical Monitor Assignments

        The process for assigning COR and GTM responsibilities for SIO contracts needs
improvement. Specifically, individuals assigned with such responsibilities appear to have little or
no daily interaction or involvement with the corresponding contractor and scope of work. For
example, one assigned COR is also the GTM for the same contract, which has multiple task
orders. The individual commented on the inability to verify the labor hours and work for the
contractors because the work being performed does not directly affect his specific division but
rather the rest of SIO.

       COR and GTM responsibilities in SIO are either assigned to division chiefs, SIO staff
members, or a representative from the Bureau of Administration. SIO-assigned individuals
perform their duties with varying degrees of diligence. Some of the CORs and GTMs have
constant interaction with their contractor staff, either via emails or face-to-face meetings, and
maintain supporting documentation to evaluate contractor performance. Other GTMs and CORs
within SIO, however, could neither articulate their responsibilities for contract oversight nor
produce documentation showing their continuous review of performance.

        SIO-provided documentation shows all CORs and GTMs have completed the required
training, but only half have received the mandatory Federal Acquisition Certification for CORs
and GTMs that qualifies them for such appointments, as detailed in Procurement Information
                                           8
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Bulletin No. 2010-20. As of July 2010, the Bureau of Administration requires all CORs and
GTMs who hold delegation letters on active contracts to be certified no later than 6 months from
the date of assignment.

        Improper assignment of CORs and GTMs, as well as their incomplete training, affects
SIO management’s ability to manage and oversee the work of its contractors. The responsibility
for a COR or GTM is not always assigned to an individual who can provide the needed frequent
interaction and oversight of the contractor’s work and scope of services. If not corrected, this
issue could lead to overpayment of contractors or failure to meet project goals. Given the more
than 200 individual contractor employees supporting SIO operations, the OIG team encourages
SIO management to take immediate action.

Recommendation 3: The Bureau of Information Resource Management, in coordination with
the Bureau of Administration, should assign the responsibilities of contracting officer’s
representatives and government technical monitors for Systems and Integration Office contracts
to individuals who have the technical expertise to evaluate the scope of work performed by the
contractors. (Action: IRM, in coordination with A)

Recommendation 4: The Bureau of Information Resource Management, in coordination with
the Bureau of Administration, should implement a policy requiring all assigned contracting
officer’s representatives and government technical monitors for Systems and Integration Office
contracts to apply for Federal Acquisition Certification by completing the required training and
submitting corresponding documentation to the Office of the Procurement Executive in
accordance with Department of State guidelines. (Action: IRM, in coordination with A)

Contractors Managing Staff

        The OIG team identified a contractor who was improperly managing full-time employees
within the SIO organization by providing them with direction on assignments, project priorities,
and daily management of tasks. The OIG team informed the relevant division chief, and
corrective steps are being taken to address the problem. (See the Enterprise Programming and
Integration Division section of this report for more details.)

Systems Development Life Cycle

Methodology

        Within SIO, EPI is seen as the driving force in directing its SDLC process. In fact, the
majority of SIO’s systems development activities occur within EPI, which is the only division
that includes systems development in its mission statement. An SDLC process defines the
recommended procedure by which an organization envisions, defines, builds, deploys, operates,
and maintains its systems and applications. An SDLC process is intended to establish a
consistent, repeatable, and transparent process that can be tailored to a variety of project types.

       With the efforts of EPI personnel, SIO documented and approved an SDLC process in
November 2011. The documentation clearly defines the control gates for each phase of the
process (initiation, planning design, test and deployment, and closeout), including required
                                           9
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

management approval and documentation. EPI’s documented SDLC process has been used and
tailored by the other SIO divisions for their specific needs. CCS’s development activities, for
example, are split primarily between payroll applications and SharePoint development. The
payroll application development uses structured methodologies associated with legacy
programming languages, whereas SharePoint development employs project development plans
based on a traditional waterfall approach—a developmental methodology whereby a project
moves to the next phase only upon completion and perfection of the preceding phase. CCS has
borrowed from EPI in much of that approach.

        SIO is currently reviewing its SDLC process to align it more closely with the Agile
methodology, which highlights requirements and solutions that evolve through collaboration
between teams. With more engagement with the customer, Agile methodology promotes
adaptive planning and development and delivery while encouraging rapid and flexible response
to change. However, SIO has not documented the Agile methodology effectively to ensure
cohesion within the existing documented process. Upon review, the OIG team found that Agile
terminology is included in the document; however, it does not include control gates or details on
the collaboration needed among teams and with customers. Further, the details on the Agile
methodology appear to be described more as a hybrid process that includes some aspects of a
waterfall methodology. When questioned, SIO management commented that a strict Agile
methodology would not work across all SIO’s prospective projects, hence the hybrid approach.
SIO has not established the process and criteria for determining which methodology to employ
for each project, resulting in a potentially indeterminate gray area of hybrid combinations. This
lack of rigor hampers SIO management’s ability to evaluate the completeness of documentation
and the performance management review of each respective project.

Recommendation 5: The Bureau of Information Resource Management should clearly
document the alternative systems development methodologies and criteria for use of each
methodology in Systems and Integration Office development activities. (Action: IRM)

Project Tracking

       The development of the Project Tracking System has assisted SIO in providing a
platform for consistency in and enforcement of the SDLC process. The system is based on the
Microsoft Project Server application and currently houses the information for several projects.
The OIG team received a demo of the Project Tracking System and found it to provide the
general requirements for project tracking. However, the system is not being used by all divisions
and branches.

Recommendation 6: The Bureau of Information Resource Management should document
which tool to use for centralized project tracking for Systems and Integration Office projects and
enforce compliance among personnel. (Action: IRM)

Program Management Functions

       SIO has not clearly defined the role and organizational placement of the Program
Management office and function or the use of terminology referring to its activities. Currently,
SIO has multiple individuals acting in a program management or process improvement capacity.
                                         10
                             SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

   Further, terms such as “program management” and “process improvement” are used
   interchangeably within the office to describe the work of multiple individuals who perform
   similar functions.

            Program management/process improvement functions are under the purview of a
   Program Management office within the EPI division that comprises 4 full-time employees and
   14 contractors. These individuals are responsible for project management process improvement,
   IT security and compliance, configuration management, and architecture of EPI operations.
   Additionally, another individual within EPI functions as an advisor on special projects. SIO has
   also recently established a process improvement position reporting directly to the SIO director.
   The role of this individual is still being defined per discussions held with SIO management. In
   fact, this individual is performing functions under his previous responsibilities and has yet to
   reside full time in his new role. Further, the SIO director has recently informed management
   about possibly establishing a separate Program Management office within the BEC division.

           It is unclear how the SIO director views the role of the Program Management office. The
   director commented that each division has good processes, and she is not certain of what, if any,
   are missing. Although the incumbent of the process improvement position is responsible for
   completing an inventory of all processes, as stated earlier, this individual has not yet assumed his
   new duties. The SIO director is unaware of what overlaps may be present with the other process-
   focused positions and entities within SIO and plans to address this issue upon completion of the
   inventory of processes.

          The OIG team expected that SIO would have conducted an analysis of existing processes
   and program management functions prior to filling any positions or making any organizational
   changes. Without such planning, confusion about responsibilities is inevitable. Management
   guidance is lacking on whether SIO will spread these specific roles throughout the office or
   consolidate them within one division/branch, as well as on the actual role and function of the
   Program Management office.

   Recommendation 7: The Bureau of Information Resource Management should determine the
   role and organizational placement of the Program Management office and function within the
   Systems and Integration Office and define terminology pertaining to program management
   activities. (Action: IRM)

   Development Network

           SIO is not monitoring its development network properly. The development network,
   DevLan, is a stand-alone network used for development activities for SIO software programs and
   is handled jointly by the CCS and EPI divisions. CCS administrators manage the DevLan
   servers, while both EPI and CCS staff provide oversight for patches and antivirus updates.
(b) (5)




                                             11
                                 SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

(b) (5)



   Recommendation 8: (b) (5)



   Recommendation 9: (b) (5)




                                           12
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Business Engagement Center Division
        The BEC division handles most of the administrative functions for SIO. The division
chief and branch chiefs communicate effectively, meeting regularly to discuss the status of
current projects and share pertinent information. BEC management also participates in
Department-wide meetings to represent the views of SIO, indicating that the division chief has
the trust of SIO management. However, BEC needs to improve its budgeting and inventory
processes, as well as contract management, which is discussed earlier in the report. Most
important, BEC employees could be structured more effectively for SIO by transferring some of
their responsibilities to another SIO division, providing BEC the opportunity to focus more on its
core functions.

       BEC consists of three branches: Planning, Acquisition, and Budget; Information
Management Support; and ESOC Customer Management. A staff of 10 full-time employees and
5 contractors provide project tracking, customer service management, and inventory
management services, as well as internal SIO acquisitions, budgeting, and contract management
functions.

Planning, Acquisition, and Budget Branch

       The Planning, Acquisition, and Budget branch is responsible for most of BEC’s
functions. The six-person team manages the SIO inventory, software licensing, budgeting,
contract management, acquisitions, credit card purchases, and office supplies for all of SIO.
Overall, the branch performs most of its functions well. However, improvements are needed in
inventory and budget management.

Inventory

        Although inventory discrepancies have been within allowable limits, the processes for
managing and tracking are poorly defined and documented. Many of SIO’s shared services were
transferred to the Bureau of Administration as part of the Center for Excellence effort. Inventory,
however, has remained a SIO responsibility, requiring SIO to account for and manage its
hardware and software inventory while coordinating with the Bureau of Administration as
needed.

       For the hardware inventory, each of the five SIO divisions has its own primary area
custodial officer, with the ESOC division having several because of its multiple locations. Each
area custodial officer performs a check of the hardware inventory each year and reports the
information to branch staff members, who consolidate the inventory information and send it to
the Bureau of Administration for uploading to the Integrated Logistics Management System.
Branch staff began drafting property management standard operating procedures in August 2011.
However, the document is still not final and does not provide a clear definition or explanation of
what constitutes “hardware” to be included in SIO’s inventory records. The OIG team also
learned of discussions to separate the ESOC inventory from the rest of SIO for better
accountability; however, the OIG team did not see corresponding decision documents or a note
of such plans within SIO’s standard operating procedures.

                                          13
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 10: The Bureau of Information Resource Management should revise and
finalize the property management standard operating procedures for the Systems and Integration
Office to provide clear definitions for and identification of division and individual
responsibilities. (Action: IRM)

         Hardware inventory tracking also warrants attention. Currently, area custodial officers are
conducting inventory reconciliation for their respective divisions and forwarding this information
to assigned staff members. However, neither BEC nor the rest of SIO uses a centralized tool to
track its inventory information internally. Instead, staff is using paper or an old version of a
utility within IRM’s Remedy IT Service Management suite to track inventory information.
Because there is no consistent tracking mechanism, some of SIO’s inventory items are missing.
For example, during the course of the inspection, area custodial officers spent several weeks
performing “floor sweeps” looking for missing items. At the end of the initial reconciliation
period, SIO reported to the Bureau of Administration more than $275,000 in missing equipment.
Although this amount is less than the 1 percent allowed by Bureau of Administration
requirements, several of the items cost more than $5,000 each, requiring SIO to report the
discrepancies to the Department’s Property Survey Board for action. A more concerted effort of
inventory oversight and accounting by SIO would help resolve this problem.

Recommendation 11: The Bureau of Information Resource Management should implement a
tool for the Systems and Integration Office to track its inventory. (Action: IRM)

        The software inventory process is a work in progress for SIO. Each SIO division used to
handle its own software ordering, receiving, and licensing processes. SIO management decided
to consolidate those activities under BEC and, in the process, identified a problem with expired
software licenses. BEC management has been reviewing the issue in two phases. The first
includes documenting the “as is” environment for software. The second entails documenting the
“to be” environment, selecting a tool to track licenses, creating a workflow diagram, and revising
the existing standard operating procedure. The OIG team obtained a copy of the developed
workflow diagrams explaining the current “as is” process for ordering and receiving software
and found it to be detailed and clear. SIO management is working toward a method for tracking
software licenses, and the OIG team supports its efforts in this regard.

Budget

        SIO is not using set criteria or guidelines for financial decisionmaking. The Planning,
Acquisition, and Budget branch manages SIO budget activities. Currently, SIO is operating
under a continuing resolution; however, it did submit a budget request for more than $82 million
for FY 2013. BEC management attends weekly budget meetings with representatives from IRM.
However, the OIG team attended several of these meetings and found the discussion to be
unfocused and unclear. Lack of clarity from IRM has led to SIO’s development of its own
internal approval process to track funding requests—the financial CCB.

       As part of this internal SIO process, employees submit funding requests for training and
purchases to their respective branch and division chiefs for review and approval. Requests are
entered into CEIS and then exported by the BEC division chief into a spreadsheet every week for
the SIO senior staff meeting. The SIO director and division chiefs, which form the financial
                                          14
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

CCB, review purchase and training requests and approve or reject them. Approved requests are
placed onto a purchase fund request form and submitted to IRM senior management for final
approval and action.

        The internal financial CCB process is a useful management tool for setting priorities.
However, no set criteria or guidelines are used by management for decisionmaking. As a result,
there is no clear rationale for approving or rejecting requests. ( b) (5)




Recommendation 12: The Bureau of Information Resource Management should develop a set
of criteria and guidelines for the Systems and Integration Office’s financial change control board
to use in its review of and decisions on purchase and training requests. (Action: IRM)

        A contractor within the branch handles SIO’s budgeting, which is typically an inherently
governmental function. This individual is responsible for and privy to the full spectrum of
information on budgeting, funding requests, and pending contracts for SIO activities. Although
BEC management has commented that SIO management approval is needed before any budget
action, the OIG team is concerned about potential conflicts of interest and lack of independence
in budgeting activities. The contract company employing this individual accounts for a large
portion of SIO contractor staff in operational fields. Granting this contractor access to all budget
information could thus afford his company an unfair advantage on future opportunities. Further,
the risk of losing institutional knowledge is possible with such heavy reliance on one contract
employee to compile budget information and attend meetings on behalf of SIO.

Recommendation 13: The Bureau of Information Resource Management should reassign the
responsibility for monitoring and tracking of and accounting for budget information in the
Systems and Integration Office to a government full-time employee and make only limited
budget information accessible to contractor staff. (Action: IRM)

Information Management Support Branch

        The Information Management Support branch, a team of four individuals, handles the
development and management of the Project Tracking System, as well as SharePoint waiver
requests. The Project Tracking System uses Microsoft Project Server to fulfill two purposes—
tracking the time and attendance for contract staff and assisting with project management for SIO
projects. Use of the system for project management is not mandatory, but the SIO director has
advised employees to use it for their respective projects. More discussion on the Project Tracking
System and its linkages to the SDLC process is provided in the Executive Direction section of
this report. The responsibility for SharePoint waiver requests, however, could be better aligned
within another SIO division.

SharePoint Waiver Requests

      The CCS division used to handle SharePoint waiver requests; however, two employees in
the BEC division are now responsible for this function. Posts or bureaus submit waiver requests
                                          15
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

to establish a local SharePoint environment primarily because the centralized SharePoint
platform does not perform well at posts that have low bandwidth or high network latency. The
requesting post or bureau completes a waiver form and submits it to SIO, which then passes the
form to IRM’s Enterprise Network Management office for latency analysis. The regional
bureau’s executive director approves the cost and personnel resource allocation to support the
waiver and then forwards the form to SIO for final recommendation and action. According to
staff members, the latency analysis performed by IRM’s Enterprise Network Management office
drives the decision on SharePoint waivers. Since 2009, SIO has received a total of 54 requests,
with 40 receiving approval. The number of waiver requests processed is minimal and could
easily be reassumed by the CCS SharePoint team without burdening staff. Centralizing all
SharePoint functions within CCS would provide decisionmakers with the most current
information on upgrades and schedules.

Recommendation 14: The Bureau of Information Resource Management should reassign the
responsibility for the management and analysis of SharePoint waiver requests to the
Collaboration and Compensation Services division within the Systems and Integration Office.
(Action: IRM)

Enterprise Server Operations Center Customer Management Branch

       The ESOC Customer Management branch, a team of three individuals, works under the
coordination of BEC staff on the development and updating of ESOC SLAs and recently
assumed responsibility for participating on the Department’s IT Change Control Board and
performing an analysis of Remedy tickets on behalf of SIO. Because ESOC is better positioned
to handle its own SLAs, it makes sense to transfer overall responsibility for this function from
BEC to ESOC personnel.

Service Level Agreements

        BEC staff members coordinate the development and updating of SLAs, which includes
129 active agreements and 67 up for renewal. ESOC SLAs are provided to Department bureaus
or offices as part of the data center consolidation of their servers and networks. Generic SLAs
are provided to each customer, with attachments detailing specific information pertaining to the
operational support and setup for that particular bureau or office.

        BEC staff commented that the ESOC SLA process needs improvement and has been
working with ESOC personnel on developing a workflow document. Specifically, BEC staff
noted lack of clarity on the divisions’ respective roles and responsibilities and on the point at
which BEC and ESOC staff become involved in the SLA process. This became an issue when
new Department customers started contacting ESOC personnel for consultation, and ESOC
informed BEC staff as an afterthought. ESOC personnel are now regularly informing BEC of
their discussions with new customers so that the latter can prepare any necessary documents. It is
understandable why customers would seek information from ESOC personnel, as they handle the
operational support for the bureau as part of the data center consolidation. Because ESOC
personnel have daily involvement with data center consolidation activities, they are also better
equipped to answer any questions or inquiries from existing or new customers. Further, ESOC

                                         16
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

staff can provide customers with information on storage capacity, operational support levels, and
timelines. For these reasons, it makes sense for ESOC to take responsibility for its SLAs.

Recommendation 15: The Bureau of Information Resource Management should reassign the
responsibility for Enterprise Service Operations Center service level agreements to the Enterprise
Service Operations Center division within the Systems and Integration Office. (Action: IRM)




                                         17
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Enterprise Server Operations Center Divisions
         ESOC consists of two divisions—O&M and D&B. The O&M division provides around-
the-clock operational and maintenance support for the Department’s domestic data centers, and
the D&B division assists with the architecture, modernization, and expansion of Department IT
facilities by standardizing IT processing resources such as servers, databases, and applications.

         The ESOC divisions are well managed by their division chiefs and staff. Processes are in
place to handle everyday tasks, contingencies, and any crisis that might arise. ESOC is
performing data center consolidation in accordance with the Federal Data Center Consolidation
Initiative. ESOC is also moving the Department toward greater virtualization, both domestically
and internationally, in conjunction with the IRM Global Information Technology Modernization
program. Further, ESOC is leveraging those virtualization and data center consolidation efforts
to move the Department toward cloud computing, which is defined and discussed in detail in the
Cloud Computing section of this report.

Operations and Maintenance Division

       The O&M division manages the operational domestic data centers. ESOC East is
primarily a contractor-owned and -run facility that requires Department oversight of the building;
heating, ventilation, air conditioning, and electrical services; and management of the servers and
rack space. ESOC West, meanwhile, is nearing completion on the western power grid. It is
owned and operated by the Department, including facilities management; heating, ventilation, air
conditioning, and electrical services; and all servers located in the data center.

        ESOC currently provides operational support to 28 bureaus and offices and manages
approximately 5,043 servers. Customers include large stakeholders such as the Bureau of
Consular Affairs and smaller customers with only one or two servers. The type of support
provided by ESOC could be one of five options ranging from “colocated,” which includes
minimal oversight, to “managed,” which requires ESOC to manage all hardware and operating
system maintenance. At overseas posts, and in conjunction with IRM’s Global Information
Technology Modernization program, ESOC is working on combining multiple infrastructure
servers into a local virtual infrastructure. Virtualization allows multiple servers to be hosted on
one piece of hardware—thus saving energy, space, and cooling. This project is on schedule for
completion in FY 2015.

         SIO has implemented a process of SLAs to ensure quality customer service. As stated
earlier in the report, a generic SLA is customized with amendments for each customer to
describe the respective bureaus’ or offices’ setup and level of support to be provided. The SLAs
require the O&M support desk to respond to an ASG-Sentry alert (a server monitoring service)
within 10 minutes. The ESOC local area network administrator remotely checks the server,
notifies the customer by email within 15 minutes or by phone within 30 minutes, and begins
troubleshooting the outage. The ESOC local area network administrator is required to be on site
within 90 minutes from the initial notification. The typical stakeholder’s SLA requires O&M to
meet these markers 90 percent of the time. The CEIS trouble ticket monitoring system
demonstrated that O&M has been meeting its SLA requirements 97 percent of the time during

                                          18
                              SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

    the past year. However, CEIS also shows 28 percent of servers as “unknown” in status,
    indicating there are no SLAs in place governing the management of those servers.

            The Department began a data center consolidation program in 2002 to support the
    Department’s global IT infrastructure. The Department was well along on this effort by the time
    the Federal Chief Information Officer kicked off the Federal Data Center Consolidation Initiative
    in February 2010, which requires agencies to perform asset inventories and create a data center
    consolidation plan. The Department had initially conducted an asset inventory in 2007, prior to
    the Federal Data Center Consolidation Initiative mandate. The latest update shows that enterprise
    applications and network services for supporting worldwide Department objectives are enabled
    by more than 5,000 servers located in 12 data centers in the United States. Currently 42 percent
    of all domestic servers have been virtualized. The Data Center Consolidation goals include
    consolidating, optimizing, and decommissioning more than 70 percent of the data centers by FY
    2015. ESOC is on track to achieve those goals.

            During the inspection, the OIG team observed that not all servers and network devices in
    the data centers have complete labels. The servers managed by O&M are labeled properly,
    whereas servers colocated with, (b) (5)




          Informal Recommendation 2: (b) (5)



           The data centers designed and managed by ESOC meet all physical and security
    requirements (b) (5)
(b) (5)




          Informal Recommendation 3: (b) (5)




                                             19
                                 SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Legacy Support Branch

         The Department has been migrating away from the legacy mainframes to open systems
computing 1 for the past decade, and consequently the need for legacy mainframe computers and
staff is fast disappearing. The move by private industry and the Department away from
mainframe computing to open systems has been customer driven. Some of the prominent
Department mainframe applications supporting financial, retirement, and consular operations
have already migrated during the past 5 years. The two remaining major mainframe applications
are the Bureau of Resource Management’s Consolidated American Payroll Processing System
(CAPPS) application and the retirement records system, which are expected to be migrated by
the end of 2013 or beginning of 2014. As mentioned earlier in the Collaboration and
Compensation Services Division section of this report, this migration will eliminate the need for
the payroll support function.

        The significant decrease in the Department’s overall number of mainframe applications
has resulted in ESOC’s having a larger capacity mainframe computer and more employees than
it needs to support operations. In an effort to save money and better align the scope of operations
with the Department’s needs, SIO management acquired a smaller mainframe computer and
reassigned or eliminated its contract employees.

         Developing a workable solution for ESOC’s 13 full-time employees in the Legacy
Support branch has been difficult; however, ESOC management has tried to upgrade the
technical skills of operations staff members so that they can transition to positions requiring
knowledge of newer technology. Toward this end, ESOC management developed a training plan
to provide the Legacy Support branch staff with details on the technical skills necessary to be
effective with the newer open systems. The ESOC open systems training plan was patterned after
the Foreign Service Institute’s IT training program, which requires students to meet certain
course prerequisites before being eligible for the next, progressively more difficult course. At the
end of the training period, individuals would, in theory, have the necessary understanding and
skills to be competent and ready to work with open systems.

        Since implementing the training plan, SIO has experienced budget cuts resulting in
limited availability for staff to attend classroom courses. However, ESOC management continues
to encourage Legacy Support branch staff to attend courses and makes their doing so a priority.
ESOC management has also instituted a small pilot program to give a few ESOC Legacy
Support branch staff members an opportunity to work with open systems as a first-level help
desk staff member. The OIG team encourages ESOC management to continue to provide such
opportunities to the Legacy Support branch.

Design and Build Division

       The D&B division is led by an effective division chief with a strong technical
background. The division chief’s focus during the inspection was the standup of a new enterprise

1
  Open systems are defined as a class of computers and associated software that provides some combination of
interoperability, portability, and open software standards. The open system standard used by the Department is
based on the Microsoft Windows operating system.
                                               20
                                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

data center—ESOC West. In his absence, most day-to-day management responsibilities for the
ESOC D&B division were handled by the other ESOC division chief.

        The D&B division manages the design and building of the ESOC data centers, oversees
implementation of the Federal Data Center Consolidation Initiative, and provides enterprise-level
Tier III technical support. The D&B division has four areas of responsibility, each one managed
by a technical team lead. These four areas include virtual infrastructure, network, backup and
recovery, and monitoring and access. Each technical team lead manages and provides technical
oversight for his or her assigned contract staff. The four technical teams work in a collaborative
manner with ESOC customers to ensure that systems being migrated by or operating in ESOC
have adequate processing capability and sufficient disk storage and are backed up and monitored
appropriately. In addition to the four teams, the division has a Project Management branch and a
Cloud Services branch. The Project Management branch coordinates communication between
the four technical teams (lanes), and the Cloud Services branch focuses on the development of
cloud services internal to SIO.

Customer and Executive Information System

        CEIS has become an integral part of ESOC operations and has assisted the division in
serving its customers. The CEIS application is a custom-built, integrated system that is a central
collection point for all ESOC activities, including asset and configuration management, project
tracking, and management reporting. CEIS also continues to play a critical role in helping SIO
provide status updates regarding its compliance with the Department’s Federal Data Center
Consolidation Initiative.

        The CEIS application contains system owner information and technical details on the
thousands of applications and systems that run in ESOC. The database also stores monitoring
information from the various customer applications and uses this information to automatically
identify problems as they occur as well as potential problems that might occur.

         Unlike the Department’s Remedy help desk application, CEIS is proactive in that it uses
the monitoring information as a trigger to generate an automatic escalation process to alert ESOC
staff or the customer of a reportable condition, which is often tied to the customer’s SLA and to
ESOC’s escalation procedures. Typically, ESOC staff can alert a customer in less than 10
minutes after an incident occurs. The CEIS workflow escalation process includes information to
guide the ESOC technician through the steps to troubleshoot and resolve a problem.

Cloud Computing

         The notion of cloud computing has been a topic of conversation in the IT field for several
years now, and though many might have difficulty defining it clearly, that uncertainty has not
stopped budgets from bending to accommodate the technology’s early adopters. The Department
shares that uncertainty over what type of cloud environment to pursue, how much to invest, who
is responsible, and which rules to follow. Although SIO has done much innovative work in the
spirit of cloud computing, its implementation of cloud computing at this point does not meet the
requirements outlined in Federal guidance.

                                          21
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        Cloud computing is generally regarded as the delivery of computing capability as a
service rather than a product, much like the difference between purchasing power from a utility
company over the power grid and buying a generator. Cloud computing is often distinguished
further from the utility analogy by describing the software as a service model, wherein the
customer has no knowledge of or control over the underlying technology infrastructure
supporting the service. NIST defines cloud computing as a model for enabling ubiquitous,
convenient, on-demand network access to a shared pool of computing resources that can be
rapidly provisioned and released with minimal management effort or service provider
interaction.

        Cloud computing has been a focal point in the Federal government for several years
because of its vast potential for creating economies of scale across Federal agencies and for
realizing cost savings. It has been advanced by efforts such as the Cloud First Policy and, more
recently, by the Federal Chief Information Officer in a memorandum to agency chief information
officers in December 2011, directing them to use the Federal Risk and Authorization
Management Program to identify and select vetted cloud service providers. NIST has also
provided guidance on implementing Federal cloud computing requirements within NIST SP 800-
45.

        In the Department, cloud computing has featured prominently as a goal in the IT
Strategic Plan and in the previous IRM Bureau Strategic and Resource Plan. IRM’s Strategic
Planning Office is leading Department efforts to plan a cloud computing strategy. The main flash
point in that discussion revolves around the extent to which the Department commits to cloud
computing—whether it will consist of an internally built and maintained “private cloud,” or
whether the Department purchases computing services from an external provider in the “public
cloud,” or some combination thereof. SIO would be responsible for implementing the
Department-wide private cloud environment.

Systems and Integration Office Implementation of Cloud Computing

         In an effort to realize the benefits of cloud computing, SIO has pursued a private cloud
environment for its customers, which is similar to many other Federal agencies and corporations.
The consolidation of the Department’s individual data centers into enterprise-level data centers
as part of the Federal Data Center Consolidation Initiative fulfills many of the overarching cloud
computing goals laid out in the Cloud First Policy and the previous IRM Bureau Strategic and
Resource Plan. These goals include improved asset utilization, aggregated demand, and
improved network and application. However, as it stands today, SIO’s implementation does not
fulfill the characteristics of a cloud computing environment as defined by NIST, which has
developed a model that includes five essential characteristics of a cloud environment, four
alternative deployment models, and three alternative service models.

        The five essential characteristics that define a cloud environment are on-demand self-
service, broad network access, resource pooling, rapid elasticity, and measured services. ESOC
does not fully satisfy any of these characteristics. Although ESOC customers can make limited
changes to their application and configuration, they cannot make changes automatically to their
server or network storage without ESOC assistance (on-demand self-service). The customer does
not yet have the capability of accessing ESOC systems from a variety of computing platforms,
                                         22
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

such as thin clients, tablets, or mobile phones (broad network access). The ability to pool
resources and automatically reassign computing resources according to consumer demand does
not exist within ESOC (resource pooling). The capability of adding and releasing computing
resources commensurate with demand without ESOC intervention does exist to some extent
(rapid elasticity). Although ESOC has some capability to monitor and use a monitored value to
alert a customer of a problem, the value cannot be used automatically to control and optimize
resources (measured services).

        The deployment model attribute refers to the cloud customer base. Because the ESOC
infrastructure is exclusively for the Department’s domestic customers, the implementation of an
ESOC cloud would thus be considered private. The other attribute used in the NIST cloud
definition is the service model. Because ESOC customers have some capability to modify their
computing resources within the Department’s security guidelines and ESOC’s processes, the
type of service model used by ESOC is called “infrastructure as a service.”

        Even in the case of a private cloud, NIST’s essential characteristics are still applicable
and serve to define those traits that make pursuing a cloud environment worthwhile, even if only
to a degree. The appropriate measure of applicability is discovered through strategic planning.
Within SIO, if the focus is to remain on the private cloud, this should be made clear in its
mission statements and elaborated on more in the next Department IT Strategic Plan and the next
bureau strategic planning request. Ultimately, the development and implementation of a
Department-wide cloud architecture will require close coordination among IRM and other
Department offices to ensure a vision that is consistent with Department-level strategic plans. Be
the cloud public or private, it would be advisable for senior IRM management to review the
NIST model as given in NIST Special Publication 800-145 to ensure that the Department’s cloud
computing goals are consistent while ensuring appropriate security controls and compliance with
Federal requirements.

Recommendation 16: The Bureau of Information Resource Management should incorporate the
essential characteristics of cloud computing as specified by the National Institute of Standards
and Technology model into its cloud computing efforts to facilitate consistency among mission
statements and goals. (Action: IRM)




                                         23
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Collaboration and Compensation Services Division
        The CCS division successfully maintains systems that perform some of the more vital
services in the Department, despite the juxtaposition in one division of state-of-the-art
collaboration tools with some of the more outdated legacy technology still in use. CCS is
responsible for two enterprise-level programs—SharePoint and CAPPS. The division’s efforts
with SharePoint have brought new methods of information sharing to the Department and in
some cases revolutionized office workflow processes. This achievement has had some
unintended consequences as offices have relied on SharePoint to an unexpected degree.
Meanwhile, the payroll function has been reliably and consistently dispatched but faces an
uncertain future in CCS as transition plans loom. Overall leadership at the division and branch
levels is strong, and staff members share a sense of camaraderie and enthusiasm for their work.

        Division staff includes 71 individuals: 10 Civil Service employees, 2 Foreign Service
employees, and 59 contractors within two branches—Enterprise Collaboration Services and
Compensation Applications. The Enterprise Collaboration Services branch has a staff of 50 and
is responsible for supporting SharePoint operations, whereas the Compensation Application
branch has a staff of 18 and supports CAPPS. CCS has had long-term difficulties in staffing the
Enterprise Collaboration Services branch chief position. Although the position was filled in
August 2011 after a lengthy vacancy, the incumbent has since been promoted within the SIO
organization and the position is once again vacant. The CCS division chief has raised with SIO
management the importance of and need for filling the branch chief position.

Enterprise Collaboration Services Branch

        The Enterprise Collaboration Services branch provides custom development and
technical support for SharePoint, as well as customer support at the Tier II and Tier III levels.
SharePoint is a multipurpose Web application used for online collaboration, content
management, and workflow processing. The branch’s main focus is managing and supporting
SharePoint services. The division chief is well regarded among staff members for her leadership,
focus, and approachability. The equally engaged branch chief has set high standards of
performance in a professional manner to complete tasks and goals. Individual and group
meetings help to keep everyone informed and allow staff to express ideas. Staff members have a
sense of camaraderie, and morale is good in spite of uncertainty about the potential effect of the
Vanguard contract.

SharePoint Program

         SharePoint began as a State Messaging and Archive Retrieval Toolset pilot initiative and
transitioned to SIO in 2008. SharePoint was designed as a knowledge management platform to
facilitate information sharing and collaboration among bureaus and offices. However, the use of
SharePoint has grown significantly beyond its intended scope, as demonstrated by the increase in
the number of SharePoint sites from 208 in 2008 to more than 25,000 in 2012. To date, the
Department has spent more than $15.6 million on SharePoint development and implementation.
According to SIO management, the application has become a mission-critical tool, with many


                                         24
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Department officials using SharePoint to conduct daily business as well as support key political
and military events.

        The SharePoint program is deployed on OpenNet, ClassNet, and SIPRNet, as well as on
the Internet to create public-facing Web sites. The consensus is that SharePoint was never
intended to be a mission-critical application. The planned and implemented deployment of
SharePoint has been based on its use as a collaboration tool. However, over time, bureaus have
become increasingly more dependent on the application, to the point where many now automate
workflow processes—their day-to-day tasks—through SharePoint. Such extensive usage, where
any downtime can affect a bureau’s ability to fulfill its mission, means that SharePoint has
essentially become mission critical to these entities. It is thus time to reevaluate risk assessments
and other terms and conditions that were party to any SLAs entered into by SIO and its
customers. Actions to remedy any shortcomings identified would follow, such as increased
security controls or resources, as well as a new understanding on the part of customers as to what
level of availability and customer service they really need and what level of customer service
support CCS can actually provide. Such a discussion might also inform any future plans for a
cost model.

        From an information security standpoint, a reevaluation would involve revisiting the
Federal Information Processing Standard’s 199 categorizations assigned to SharePoint. For
Federal Information Security Management Act purposes, SharePoint is treated as a series of Web
sites and therefore as a part of each general support system. In the case of OpenNet, SharePoint
inherited the same moderate security categorization that was assigned to OpenNet—resulting in
enterprise SharePoint administrators and site collection managers being required only to
implement security controls for the application that are consistent with a moderate
categorization, despite the high reliance certain entities within the Department have on the
application to conduct their daily business. Further, the documentation submitted to the IT asset
baseline, the application that maintains the official Department inventory of systems for
reporting to the Office of Management and Budget, is rather sparse. There is no mention of a
parent-child reporting relationship between OpenNet as a general support system and SharePoint
as merely Web sites hosted on that system.

Recommendation 17: The Bureau of Information Resource Management should perform a risk
management assessment of SharePoint and determine the appropriate security categorization
based on its current scope and use. (Action: IRM)

        Another important consideration is that the use of SharePoint is dynamic and that risk
management assessments can be valid only for a specific point in time. Customer behavior and
usage of SharePoint will continue to evolve beyond the stage at which the risk assessment is
performed, as evidenced by the wide proliferation of site collections. To handle that growth and
provide better service according to multiple levels of mission criticality, SIO is already planning
to create multiple server farms capable of meeting the different requirements as part of their
SharePoint 2010 migration. However, customers could potentially still create sites and store
content on those sites that is above the security categorization level at which the farm is
accredited. Therefore, it will be important to ensure that site collection administrators and
business owners certify their understanding of the categorization level of each SharePoint farm
and the specific limitations on content within the SharePoint environment.
                                          25
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 18: The Bureau of Information Resource Management should revise the
service level agreement process for SharePoint services to include a signed certification of
understanding from both parties regarding the current security categorization of SharePoint and
the specific limitations on content within the SharePoint environment and implement a process
for periodic review of the agreement. (Action: IRM)

Customer Support

        Customer support for SharePoint gets mixed reviews from customers, largely because
this function is shared between the Enterprise Collaboration Services branch and the IT Service
Center (ITSC)—the single point of contact for all Department-wide IT support for consolidated
bureaus. ITSC is responsible for issuing, logging, and tracking a ticket for each incident, as well
as for posting notices about SharePoint outages. ITSC attempts to resolve the problem at the Tier
I support level. If unsuccessful, ITSC transfers the issue to CCS, which handles Tiers II and III
customer support levels. ITSC notifies customers of scheduled and unscheduled outages upon
receipt of a CCS-generated email with the outage notification information. CCS also follows up
with a phone call to ITSC about the email. ITSC allows a 90-minute window for sending emails
with notification alerts, which has lead to customer complaints about system outages due to the
lack of a timely notification. The process is cumbersome and inefficient. Any delay in
communicating an outage, especially an unscheduled one, affects customer operations and
reflects poorly on IRM customer service.

Recommendation 19: The Bureau of Information Resource Management should transfer the
primary responsibility for notifying customers on SharePoint outages from the Information
Technology Service Center to the Systems and Integration Office and revise the operational level
agreement accordingly. (Action: IRM)

        CCS has updated its internal standard operating procedures for ticket processing, system
outages, and communication with ITSC. CCS has begun revising the 2009 operational level
agreement between ITSC and CCS. The agreement describes the roles and responsibilities of all
relevant parties and explains the procedures for providing technical assistance on SharePoint-
related issues. The proposed changes will define the scope of CCS services to help reduce the
number of misrouted tickets and includes reference links to a customer support site to help ITSC
respond to common requests/incidents. CCS has not yet discussed the proposed changes and
updates to the operational level agreement with ITSC; as a result, both parties are working from
different procedures and processes.

Recommendation 20: The Bureau of Information Resource Management should revise the
operational level agreement for SharePoint to delineate the roles and responsibilities of and
procedures to be followed by the Systems and Integration Office and the Information
Technology Service Center. (Action: IRM)

       SharePoint customers are frustrated by the team’s inability to correct problems in a
timely manner. The OIG team was unable to determine the root cause of this issue because of the
numerous components and parties involved in the operational aspects of the SharePoint
environment (e.g., ITSC, CCS, and connectivity and latency factors). However, the inspectors
advised CCS management to continue to perform customer outreach and make customer service
                                          26
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

its top priority. In March–April 2011, the SharePoint team conducted a customer survey tailored
to identify customer requirements for needed enhancements in SharePoint. However, the survey
did not contain any general customer service questions except for one on the SharePoint
customer support site where CCS advertises its brown bag sessions and workshops. Lack of
adequate customer feedback hampers SIO’s ability to address issues of primary concern to end
users.

Recommendation 21: The Bureau of Information Resource Management should conduct
regular SharePoint customer service surveys to seek feedback on the timeliness of responses,
routing of tickets, resolution of issues, and functionality of the application. (Action: IRM)

        Once ITSC closes a ticket, it issues surveys to its customers to request feedback. In the
past, ITSC provided this information to bureaus and offices. The Enterprise Collaboration
Services branch only recently began asking for this information because of the OIG inspection.
The branch received 109 responses on SharePoint usage from January 2011 to March 2012,
during which time the branch processed 2,982 tickets. CCS realizes the benefit of receiving this
information and has begun analyzing and measuring it against SLAs. For example, the group is
reviewing how long it takes for tickets to be transferred from ITSC’s Tier I support level to CCS.
The OIG team encourages CCS’s continued efforts to analyze performance and problem areas.

        CCS has hosted more than 50 Enterprise SharePoint Configuration Control Board
meetings since August 2008. Five of those meetings were recently conducted virtually. During
the meetings CCS shares the status and impact of proposed configuration changes, reports on the
status of past or future maintenance activities, and provides an opportunity for SharePoint users
to raise issues and ask questions. As of January 2012, CCS had decided to hold virtual and in-
person meetings. The virtual meetings were intended to provide convenience to those overseas
customers in different time zones but instead have proved to be a disadvantage, as they hinder
back-and-forth communication with the SharePoint team. The SharePoint community is now
engaged in discussions about whether to continue virtual meetings.

SharePoint 2010 Migration

        The Enterprise Collaboration Services branch has been working extensively on the
migration to SharePoint 2010. According to SIO management, SharePoint 2010 will provide
users with enhanced functionality, improved search capability and performance, and increased
storage capacity. The migration to SharePoint 2010 requires extensive planning and coordination
among parties, as it involves moving all site collections from the SharePoint 2007 platform. The
branch originally planned to deploy the pilot in October 2011 but admits that this deadline was
too optimistic. According to management, several factors have contributed to the missed
milestone for the pilot, including performance problems with SharePoint in fall 2011, the vacant
branch chief position, staff turnover in the lead contract project manager position, and increased
workload among engineering staff members in resolving Tier III support issues. The branch has
now reset the pilot deployment date to May 2012, with an estimated year to migrate all customer
data. To assist, staff is employing a Scrum team software development methodology to expedite
the prototyping of a pilot architecture. Further, when SIO filled the branch chief position, albeit
briefly, in August 2011, CCS was able to prioritize projects and refine processes.

                                          27
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        SIO management is in the early stages of determining whether and how to charge
customers for SharePoint services. CCS is responsible for designing a cost model and completing
a formal analysis so that it can present an informed recommendation to senior management on
the various fee-for-service options. Currently, CCS charges a fee of $135 per hour for any site
design work it conducts beyond the 8 hours of support it provides to customers. The proposal to
begin charging for additional SharePoint services and usage is a recent one, and senior IRM
management requested that CCS management determine a charge-back cost model for
SharePoint support services.

Recommendation 22: The Bureau of Information Resource Management, in coordination with
the Bureau of Resource Management and the Bureau of Administration, should identify the
appropriate funding mechanisms and payment structures, if any, for SharePoint usage and share
this information with SharePoint customers. (Action: IRM, in coordination with RM and A)

Compensation Applications Branch

        The Compensation Applications branch maintains the 30-year-old CAPPS mainframe,
which generates payroll for all U.S. citizen Department employees. The branch has performed
this mission-critical function well but is in transition as the Department plans to sunset the
current CAPPS application and move the payroll function to the Bureau of Resource
Management. This change has widespread ramifications for SIO, which still has much to do to
prepare for the transition.

        The CAPPS system makes payments to approximately 29,500 Foreign Service and Civil
Service employees, family members, and personal services contractors. CAPPS excludes Foreign
Service national employees, who are paid by Foreign Service National Payroll Operations at
Global Financial Services Charleston, which is responsible for managing and overseeing the
Department’s payroll operation and for directing the Compensation Applications branch by
establishing priorities and providing guidance on mandated projects, such as the Roth Thrift
Savings Plan program, that the branch must implement. Global Financial Services Charleston
also certifies the accuracy of payroll, funds CCS operations, and reviews the American personnel
and payroll history contained in the CAPPS Retirement Record System—the repository of
current and historical master files used to calculate the basic retirement benefits payable to
separated employees.

        Discussions about modernizing the payroll system have been ongoing since 2004 but
gained added momentum when the Department decided not to join one of the Office of
Management and Budget’s designated e-Payroll service providers. Instead, the Department is
planning to develop a replacement payroll system that the Bureau of Resource Management will
deploy by the end of 2013. The sunset of the CAPPS system will mean the abolishment of
Compensation Application branch operations and uncertainty for its staff. The division chief has
known about these plans since November 2009 but has yet to develop a transition plan for branch
staff. A February 2012 visit by the Global Compensation Operations manager confirmed that the
transition to the new payroll system is on schedule for a December 2013 deployment. After the
transition, the Compensation Application branch staff will be responsible only for maintaining
the Department’s domestic time and attendance system, WebTatel, until Global Financial

                                         28
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Services Charleston deploys a new system for domestic payroll processing, tentatively planned
for 2014.

         The CCS division chief has encouraged its seven team members to prepare themselves
for the transition by offering training and asking staff to consider other possible career directions.
Some of these individuals have done little to prepare, and those with outdated technological
skills may be challenged in today’s sophisticated IT world. Individual development plans for the
Compensation Applications branch staff are being updated. CCS division management has
delayed development of a transition plan because of uncertainty regarding how the Vanguard
contract will affect the payroll function. However, during the OIG inspection, management
decided that the payroll function will not be part of the Vanguard 2.3.x series and that the
contract will continue through its final option year. A transition plan will assist management and
staff to adjust to the change in responsibilities and the role of the branch as a whole. The
Department’s procurement experts can help SIO define the best course of action to continue
providing contractual support when the current contract expires in September 2012 and until the
Bureau of Resource Management takes control of the payroll function.

Recommendation 23: The Bureau of Information Resource Management, in coordination with
the Bureaus of Resource Management, Administration, and Human Resources, should develop a
transition plan for the Compensation Applications branch that includes, at a minimum, an
assessment of skills and training needs for individuals and a determination of the post-transition
role of the branch. (Action: IRM, in coordination with RM, A, and DGHR)

Recommendation 24: The Bureau of Information Resource Management, in coordination with
the Bureau of Administration, should determine what contractual arrangements are necessary to
administer the payroll function pending its transition to the Bureau of Resource Management’s
portfolio and implement them accordingly. (Action: IRM, in coordination with A)




                                          29
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Enterprise Programming and Integration Division
        The EPI division is focused on facilitating Department-wide accessibility to software
solutions by employing application integration and data management technology solutions and
services. EPI is the focal point for some of the Department’s enterprise applications such as
eCountry Clearance, WebPass, and Concierge. The division chief received favorable marks from
staff, with many acknowledging the welcome structure and accountability she has brought to the
division. Most of the EPI branch chiefs and project managers are new to the Department, so a
transition is still under way regarding the SDLC process. Management oversight of contract
employees and their work is an area of concern.

        A total staff of 17 full-time employees and 74 contractors support EPI’s four branches:
Data Management, Integrated Projects, Application Development, and the Program Management
office. The division chief and branch chiefs meet regularly to discuss project status and provide
suggestions to one another on internal processes.

Data Management Branch

        The Data Management branch is working effectively as a team, receiving strong
leadership from its branch chief. The team consists of 3 full-time employees and 17 contractors
who are responsible for treating data that are shared across bureaus within the Department as a
global asset and for handling data governance matters. Two sections make up this branch—
Enterprise Data Warehouse and Data Management and Governance. Each section engages with
its customers to define business and data standards.

       The branch chief meets with staff on a regular basis and is considered to be approachable,
which has helped the branch address difficult issues. For example, the branch was involved in
discussions with one of its primary customers regarding the implementation of WebPass and
Concierge. Lack of participation from senior IRM officials caused problems initially, which the
branch has since overcome with frequent communication between the branch chief and the
customer.

Integrated Projects Branch

        With a team of 3 full-time employees and 17 contractors, the Integrated Projects branch
provides support services for CEIS and handles all of the Tier II and Tier III customer support
levels for the Enterprise Service Bus, IT Asset Baseline, and Tips of the Day. The branch chief
joined SIO 5 months ago and has been working on developing reporting and operational
processes. The branch is utilizing the Project Tracking System and internal spreadsheets to
document its work.

       The branch chief is an advocate for adhering to the established chain of command within
management. As a result, all information is filtered through proper management channels from
contractors to government project managers to the final report to the branch chief. This process
helps keep government project managers informed of the work their respective teams are


                                         30
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

performing. The branch chief also takes a proactive approach, as evidence by his enrollment of
himself and other full-time personnel in COR training to improve monitoring of contractor work.

        The OIG team found that information was missing from records for those applications
and systems under EPI’s purview as an application owner, including in required fields such as
the profile, distribution, parent-child relationship, and Federal enterprise architecture mapping.
There were also apparent differences in how much information was reported for new
applications and systems versus legacy assets. According to EPI management, stand-alone
applications and systems that will reduce or eliminate the dependencies of other systems and
subsystems with parent-child relationships are under development. However, there was no
description of what information to include for each application and system, nor an indication of
whether management had approved these decisions. During this inspection, EPI management
provided the missing information for its applications within the IT Asset Baseline.

Application Development Branch

        The Application Development branch has 6 full-time employees and 26 contractors who
are responsible for developing and supporting enterprise applications such as eCountry
Clearance, WebPass, and Concierge. The OIG team found the branch chief less than fully
engaged in the work or personnel matters of the branch. Although the chief meets with staff
weekly, the level of engaged conversation is limited. When the OIG team brought these matters
to the branch chief’s attention, his response was not supportive of needed change.

        In addition, the branch chief has given more authority to contractors than to government
full-time employees. For example, contractors are engaging as points of contact for and holding
meetings with customers in lieu of government project managers. The OIG team was told
repeatedly of instances in which contractors were not sharing information appropriately with
government project managers and were assigning tasks to full-time employees only with the
branch chief’s permission. Contractor management is discussed further in the Executive
Direction section of this report.

        The EPI division chief became unaware of these problems only during the OIG
inspection. Once informed, the division chief began to make organizational changes to ensure
proper oversight of contractor and supervisory authority, including designating one full-time
employee as the government lead for the application support help desk. The contractor lead will
remain responsible for managing the contract staff with regard to applications support. The
branch chief is also establishing recurring status meetings with all government leads to monitor
the activity and productivity of full-time employee government staff on the application support
desk.

Program Management Office

        The Program Management office has a team of 3 full-time employees and 14 contractors
and is responsible for the oversight and development of the project management process flows
and IT security and compliance within EPI. One of the team’s primary areas of focus is the
integration of best practices and efficiencies within programs such as WebPass and Concierge.
Among the office’s accomplishments is the establishment of EPI’s well-documented SDLC,
                                          31
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

which outlines and describes approaches to a variety of tasks or activities that take place during
the software development process, from initiation to deployment. The responsibilities and role of
EPI’s Program Management office is similar to other program management and process
improvement positions within SIO. See the Executive Direction section of this report for more
details on this matter.

        The Program Management office comprises four teams. The Program Management team
meets with customers during the initiation phase of a project to gather requirements. The IT
Security and Compliance team handles the information systems security officer and compliance
functions, including certification and accreditation activities. The Release and Configuration
Management team validates change control and deployment readiness documentation. Finally,
the Architecture/System Administration team is responsible for developing the best solution to
meet customer needs and requirements. See the Program Management Functions section of this
report for further discussion of the Program Management office and a related recommendation.




                                         32
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Bureau of Information Resource Management should establish a
central repository for the management of Systems and Integration Office contracts so that all
relevant documentation for each contract, such as statements of work, amendments, and invoices,
are in one central location. (Action: IRM)

Recommendation 2: The Bureau of Information Resource Management should prepare a
funding document that details the authorized, spent, and remaining funds for each Systems and
Integration Office contract and implement procedures to verify and update this information
regularly. (Action: IRM)

Recommendation 3: The Bureau of Information Resource Management, in coordination with
the Bureau of Administration, should assign the responsibilities of contracting officer’s
representatives and government technical monitors for Systems and Integration Office contracts
to individuals who have the technical expertise to evaluate the scope of work performed by the
contractors. (Action: IRM, in coordination with A)

Recommendation 4: The Bureau of Information Resource Management, in coordination with
the Bureau of Administration, should implement a policy requiring all assigned contracting
officer’s representatives and government technical monitors for Systems and Integration Office
contracts to apply for Federal Acquisition Certification by completing the required training and
submitting corresponding documentation to the Office of the Procurement Executive in
accordance with Department of State guidelines. (Action: IRM, in coordination with A)

Recommendation 5: The Bureau of Information Resource Management should clearly
document the alternative systems development methodologies and criteria for use of each
methodology in Systems and Integration Office development activities. (Action: IRM)

Recommendation 6: The Bureau of Information Resource Management should document
which tool to use for centralized project tracking for Systems and Integration Office projects and
enforce compliance among personnel. (Action: IRM)

Recommendation 7: The Bureau of Information Resource Management should determine the
role and organizational placement of the Program Management office and function within the
Systems and Integration Office and define terminology pertaining to program management
activities. (Action: IRM)

Recommendation 8: (b) (5)



Recommendation 9: (b) (5)



Recommendation 10: The Bureau of Information Resource Management should revise and
finalize the property management standard operating procedures for the Systems and Integration
                                              33
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Office to provide clear definitions for and identification of division and individual
responsibilities. (Action: IRM)

Recommendation 11: The Bureau of Information Resource Management should implement a
tool for the Systems and Integration Office to track its inventory. (Action: IRM)

Recommendation 12: The Bureau of Information Resource Management should develop a set
of criteria and guidelines for the Systems and Integration Office’s financial change control board
to use in its review of and decisions on purchase and training requests. (Action: IRM)

Recommendation 13: The Bureau of Information Resource Management should reassign the
responsibility for monitoring and tracking of and accounting for budget information in the
Systems and Integration Office to a government full-time employee and make only limited
budget information accessible to contractor staff. (Action: IRM)

Recommendation 14: The Bureau of Information Resource Management should reassign the
responsibility for the management and analysis of SharePoint waiver requests to the
Collaboration and Compensation Services division within the Systems and Integration Office.
(Action: IRM)

Recommendation 15: The Bureau of Information Resource Management should reassign the
responsibility for Enterprise Service Operations Center service level agreements to the Enterprise
Service Operations Center division within the Systems and Integration Office. (Action: IRM)

Recommendation 16: The Bureau of Information Resource Management should incorporate
the essential characteristics of cloud computing as specified by the National Institute of
Standards and Technology model into its cloud computing efforts to facilitate consistency among
mission statements and goals. (Action: IRM)

Recommendation 17: The Bureau of Information Resource Management should perform a
risk management assessment of SharePoint and determine the appropriate security categorization
based on its current scope and use. (Action: IRM)

Recommendation 18: The Bureau of Information Resource Management should revise the
service level agreement process for SharePoint services to include a signed certification of
understanding from both parties regarding the current security categorization of SharePoint and
the specific limitations on content within the SharePoint environment and implement a process
for periodic review of the agreement. (Action: IRM)

Recommendation 19: The Bureau of Information Resource Management should transfer the
primary responsibility for notifying customers on SharePoint outages from the Information
Technology Service Center to the Systems and Integration Office and revise the operational level
agreement accordingly. (Action: IRM)

Recommendation 20: The Bureau of Information Resource Management should revise the
operational level agreement for SharePoint to delineate the roles and responsibilities of and
procedures to be followed by the Systems and Integration Office and the Information
Technology Service Center. (Action: IRM)

                                          34
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 21: The Bureau of Information Resource Management should conduct
regular SharePoint customer service surveys to seek feedback on the timeliness of responses,
routing of tickets, resolution of issues, and functionality of the application. (Action: IRM)

Recommendation 22: The Bureau of Information Resource Management, in coordination with
the Bureau of Resource Management and the Bureau of Administration, should identify the
appropriate funding mechanisms and payment structures, if any, for SharePoint usage and share
this information with SharePoint customers. (Action: IRM, in coordination with RM and A)

Recommendation 23: The Bureau of Information Resource Management, in coordination with
the Bureaus of Resource Management, Administration, and Human Resources, should develop a
transition plan for the Compensation Applications branch that includes, at a minimum, an
assessment of skills and training needs for individuals and a determination of the post-transition
role of the branch. (Action: IRM, in coordination with RM, A, and DGHR)

Recommendation 24: The Bureau of Information Resource Management, in coordination with
the Bureau of Administration, should determine what contractual arrangements are necessary to
administer the payroll function pending its transition to the Bureau of Resource Management’s
portfolio and implement them accordingly. (Action: IRM, in coordination with A)




                                         35
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Bureau of Information Resource Management should
conduct periodic reviews of the Systems and Integration Office’s mission and goals to measure
its progress in meeting the Department of State’s information technology strategic goals and
make revisions as needed.

Informal Recommendation 2: The Bureau of Information Resource Management should label
all servers and network devices at domestic data centers according to Department of State
guidelines.

Informal Recommendation 3: The Bureau of Information Resource Management should
mitigate the risk of water leakage from the pipes onto the server racks at Enterprise Service
Operations Centers.




                                          36
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


 Principal Officials
                                                                         Name      Arrival Date

Director                                                         Cynthia Cassil   Cynthia Cassil
Business Engagement Center                                    Catherine Walker            03/08
Collaboration and Compensation Services                          Penny Duncan             07/09
Enterprise Programming and Integration                Michelle Sparrow-Walker             07/09
Enterprise Server Operations Center, Operations and     C. Melonie Parker-Hill            06/07
   Maintenance
Enterprise Server Operations Center, Design and                Raymond Brow               11/06
   Build




                                          37
                              SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
BEC             Business Engagement Center division
CAPPS           Consolidated American Payroll Processing System
CCS             Collaboration and Compensation Services division
CEIS            Customer and Executive Information System
COR             Contracting officer’s representative
D&B             Design and Build division
EPI             Enterprise Programming and Integration division
ESOC            Enterprise Server Operations Center
GTM             Government technical monitor
IRM             Bureau of Information Resource Management
IT              Information technology
ITSC            Information Technology Service Center
NIST            National Institute of Standards and Technology
O&M             Operations and Maintenance division
SDLC            Systems development lifecycle
SIO             Systems and Integration Office
SLA             Service level agreement




                            38
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
